                National Aeronautics and Space Administration

                    OFFICE OF INSPECTOR GENERAL



                  Security of NASA’s Publicly
                  Accessible Web Applications




                             OFFICE OF AUDITS
                                AUDIT REPORT
IG-14-023                       JULY 10, 2014
(A-13-018-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

FY           Fiscal Year
ID           Identifier
IP           Internet Protocol
IT           Information Technology
IPAM         Internet Protocol Asset Management
NIST         National Institute of Standards and Technology
OCIO         Office of Chief Information Officer
OIG          Office of Inspector General
SQL          Structured Language Query
URI          Uniform Resource Indicator
WASP         Web Application Security Program


                                                              REPORT NO. IG-14-023
JULY 10, 2014




                                                                                          OVERVIEW

              SECURITY OF NASA’S PUBLICLY ACCESSIBLE WEB
                             APPLICATIONS
                                                                                            The Issue

   NASA manages approximately 1,200 publicly accessible web applications – or about half
   of all publicly accessible non-military Federal Government websites – to share scientific
   information with the public, collaborate with research partners, and provide Agency civil
   servant and contractor employees with remote access to NASA networks. Hundreds of
   these web applications are part of information technology (IT) systems NASA
   characterizes as high- or moderate-impact, meaning that a security breach could result in
   the loss of sensitive data or seriously impair Agency operations. NASA’s publicly
   accessible web applications consist mainly of websites, but also include web-based login
   portals and administrative systems that provide authorized personnel remote access to
   Agency IT resources.

   NASA is a regular target of cyber attacks both because of the large size of Agency
   networks and because those networks contain technical and other sensitive information
   highly sought after by criminals. The Agency’s substantial connectivity with outside
   organizations – in particular nongovernmental educational institutions and research
   facilities – presents cybercriminals with a larger target than most other Government
   agencies. In fiscal year (FY) 2013, NASA reported that exploitation of vulnerable web
   applications accounted for one-third (61 of 183) of the Agency’s total IT security
   breaches, with several resulting in the loss of sensitive information and disruption to
   Agency operations. For example, in July 2013, hackers compromised a NASA Shared
   Services Center website containing personally identifiable information of Agency civil
   servants and contractors. Further, several NASA websites hosted by the Ames Research
   Center had to be taken offline in September 2013 after an international hacker posted
   political statements opposing U.S. policy.

   The frequency and sophistication of attacks directed at NASA’s publicly accessible web
   applications has increased dramatically over the past several years. For example, between FYs
   2012 and 2013, NASA experienced an 850 percent increase (from 42 to 359) in structured
   query language (SQL) injection attacks that attempted to compromise Agency web applications
   to steal data or gain a foothold into its networks for future exploitations.1


   1
       SQL is an industry standard computer language used to query, operate, and administer many databases,
       including Microsoft and Oracle databases. In a SQL injection attack, the attacker appends (injects)
       instructions onto the end of a valid SQL statement in an attempt to gain unauthorized access to the
       system and its data.



REPORT NO. IG-14-023
                                                                                                           OVERVIEW



     In response to this growing cyber threat and a prior NASA Office of Inspector General
     recommendation, NASA established an Agency-wide initiative in 2012 – the Web
     Application Security Program (WASP) – to identify and assess vulnerabilities on all of its
     publicly accessible web applications and mitigate the most severe vulnerabilities before
     hackers exploit them.2 Reducing the Agency’s extensive web “footprint” is one of the
     more effective ways NASA can counter the threat of cyber attacks on its publicly
     accessible web applications. To this end, the Office of the Chief Information Officer
     (OCIO) and NASA Center IT security officials are working to reduce NASA’s web
     presence by eliminating unused and duplicative web applications and moving Agency
     websites to a public cloud-computing environment.3

     Results

     NASA’s ongoing efforts to reduce its web presence and to identify and scan for
     vulnerabilities on its publicly accessible web applications have improved Agency IT
     security. However, NASA needs to close remaining security gaps, strengthen program
     oversight, and further reduce the number of publicly accessible web applications. We found
     that WASP developed a complete inventory of all publically available web applications
     maintained by NASA Headquarters and Centers and, consistent with best practices,
     identified vulnerabilities through automated scanning coupled with manual testing. In
     addition, during the 15-month period ending March 2014, NASA reduced by 15 percent
     (from 1,500 to 1,200) the number of its publicly accessible web applications. Despite this
     progress, we found deficiencies in WASP’s design and implementation that leaves NASA’s
     publicly accessible web applications at risk of compromise. These deficiencies occurred
     because WASP did not prioritize identification of security vulnerabilities by seriousness of
     potential impact, identify the underlying cause of vulnerabilities, identify weaknesses
     associated with unsound IT security practices, or implement an effective process to ensure
     timely mitigation of identified vulnerabilities. Finally, while NASA has made strides in
     reducing the scope of its web presence, the Agency’s remaining 1,200 publicly accessible
     web applications continue to present a large target for hackers.

     Vulnerability Discovery Not Prioritized by System Impact Level. Effectively
     managing risk dictates NASA identify and address vulnerabilities in high- and
     moderate-impact systems before those in other systems.4 Experience has shown that
     detecting vulnerabilities in web applications requires a combination of automated and
     manual testing, with WASP identifying 90 percent of the vulnerabilities in NASA

     2
         NASA OIG, “Inadequate Security Practices Expose Key NASA Network to Cyber Attack” (IG-11-17,
         March 28, 2011).
     3
         A public cloud-computing provider is a third-party IT service provider (e.g., Amazon) that delivers
         services, such as website hosting or data storage, to consumers over the Internet.
     4
         According to the National Institute of Standards and Technology, the loss of confidentiality, integrity, or
         availability in a moderate-impact system could have serious adverse effects on an organization’s
         operations, assets, or individuals, while in a high-impact system, such a loss could have severe or
         catastrophic effects.



ii                                                                                           REPORT NO. IG-14-023
OVERVIEW



   systems from manual testing and only 10 percent from automated scanning. Because
   manual testing requires a significant amount of time and resources, efficient use of such
   testing requires focusing on high- and moderate-impact systems before examining
   low-impact systems.

   We found that WASP has not mapped NASA’s web applications back to their
   information systems using the Agency’s security categorization data to determine their
   security impact level. Accordingly, WASP is unable to prioritize manual scanning by
   risk level, which increases the risk that vulnerabilities in critical publicly accessible web
   applications may go undetected and unmitigated.

   WASP did not Address Root Cause of Vulnerabilities. Identifying and addressing the
   root cause of a system’s security weaknesses helps prevent vulnerabilities from recurring
   and is a recognized best practice in IT security. We noted that WASP identified a
   repeating pattern of high-severity vulnerabilities associated with certain publicly
   accessible web applications that allowed NASA personnel to access Agency systems and
   network resources remotely. For security purposes, since 2008 NASA policy has
   required public websites originating from the Agency be registered, approved, and tested
   for vulnerabilities before deployment. However, this policy does not apply to other types
   of web applications, such as login portals and management consoles. In our judgment,
   the root cause of the recurring vulnerabilities associated with these other types of web
   applications is a control deficiency that allowed them to be deployed without undergoing
   the type of oversight and testing required for NASA’s public websites.

   WASP did not Identify Weaknesses Associated with Unsound IT Security Practices.
   Hackers target publicly accessible web applications that are under development or in the testing
   phase because such applications often lack security controls common to production
   applications. We reviewed the uniform resource indicators associated with NASA’s publicly
   accessible web applications and identified 15 web applications that were under development or
   in testing.5 Two of the 15 were preproduction versions of a moderate-impact Agency-wide
   system used to manage IT system access privileges and credentials that contained usernames
   and passwords for more than 55,000 NASA civil servant and contractor employees. A remote
   attacker who accessed these applications could have extracted thousands of user identifiers (ID)
   and, using an automated tool to guess the corresponding passwords, attempt to log into NASA
   systems. In FY 2013, such “brute force” attacks accounted for 6 percent (11 of 183) of
   NASA’s total system breaches.

   Allowing Internet access to preproduction Agency web applications is a significant
   security deficiency. WASP did not detect this weakness because it focused too narrowly
   on finding technical vulnerabilities and overlooked weaknesses related to unsound IT
   security practices.

   5
       Uniform resource indicator – also referred to as uniform resource locator (URL) – is a string of
       characters used to identify a web resource. For example, www.nasa.gov is the URL for NASA’s public
       website. Typically, web-based applications under development or in the test phase have a URL that
       contains strings such as “.dev,” “.test,” or “.tst.”



REPORT NO. IG-14-023                                                                                        iii
                                                                                           OVERVIEW



     Untimely Mitigation of Vulnerabilities Puts NASA’s Publicly Accessible Web
     Applications at Risk of Compromise. Prompt mitigation of vulnerabilities in NASA’s
     publicly accessible web applications is essential to ensuring the confidentiality, integrity,
     and availability of Agency systems and data. Accordingly, NASA policy requires all
     critical and high-severity vulnerabilities be mitigated within 10 days of discovery.

     We reviewed the status of web application vulnerabilities in the Agency’s information
     system and found that as of January 2014, 93 percent (26 of 28) of confirmed critical and
     high-severity vulnerabilities remained unmitigated 6 months after notification to the
     affected Center. We determined this occurred because OCIO staff did not have access to
     the Agency’s vulnerability tracking system to check the status of outstanding
     vulnerabilities and follow up, as necessary, with the responsible NASA organization.
     According to OCIO officials, a lack of resources has prevented them from monitoring the
     real-time status of these vulnerabilities. Moreover, Center IT staff told us they could not
     determine the status of their Center’s vulnerabilities because they did not have access to
     the vulnerability tracking system. Finally, we found that WASP generally used a 45-day
     rather than the NASA-mandated 10-day timeframe to validate whether critical and
     high-severity vulnerabilities had been mitigated.


     Management Action

     NASA’s websites and publicly accessible web applications are under constant attack by
     hackers, and the frequency and sophistication of these cyber attacks is increasing. Thus,
     it is imperative that NASA find and mitigate vulnerabilities in Agency web applications
     before hackers exploit them. In addition, NASA should identify the root cause of
     security weaknesses to prevent vulnerabilities from recurring and improve oversight of
     WASP to ensure identified deficiencies are addressed promptly. Finally, while NASA
     has made progress by reducing its web presence by more than 300 applications, the 1,200
     remaining publicly accessible web applications provide multiple potential entry points for
     remote attackers to gain unauthorized access to Agency systems and data. Accordingly,
     we recommend that the Agency Chief Information Officer (CIO) ensure vulnerability
     discovery and mitigation are prioritized by system impact level, require all publicly
     accessible web applications be registered and scanned for vulnerabilities before
     deployment, require Centers to remove or secure publicly accessible applications under
     development or testing, and implement an oversight process to ensure that all critical and
     high-severity vulnerabilities are mitigated within 10 days of discovery.

     In response to a draft of this report, NASA’s CIO concurred with our recommendations
     and proposed actions to improve the security of NASA’s publicly accessible web
     applications. We consider the CIO’s planned actions responsive and will close the
     recommendations upon verification that the Agency has completed them. We also
     reviewed management’s comments for technical accuracy and report sensitivity and
     incorporated those as appropriate. Management’s full response to the draft report is
     reprinted in Appendix B.


iv                                                                             REPORT NO. IG-14-023
JULY 10, 2014




                                                         CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 4

   RESULTS
      NASA Has Improved the Security of its Public Web Applications
        but Needs to Address Remaining Vulnerabilities,
        Strengthen Program Oversight, and Further Reduce its
        Extensive Web Presence _____________________________ 5

   APPENDIX A
      Scope and Methodology _______________________________ 13
      Review of Internal Controls ____________________________ 14
      Prior Coverage ______________________________________ 14

   APPENDIX B
      Management Comments ______________________________ 15

   APPENDIX C
      Report Distribution ___________________________________ 18




REPORT NO. IG-14-023
JULY 10, 2014




                                                                                   INTRODUCTION


Background

   The Internet has grown over the past 15 years from a simple collection of static websites
   to a vast conglomeration of sophisticated web applications that include websites,
   administrative consoles, and web login portals.6 Many of these web applications are
   publicly accessible, which means that anyone with an Internet connection can access
   them. Hackers routinely exploit vulnerabilities in these applications to gain unauthorized
   access to computer networks in order to steal sensitive information and data, disrupt
   operations, or attain public notoriety. In 2011, one information technology (IT) advisory
   firm estimated that more than 70 percent of all cyber attacks target vulnerabilities in an
   organization’s publicly accessible web applications.7 Moreover, hackers can use a minor
   flaw in a web application as an entryway to an organization’s entire network.

   NASA has a significant Internet presence with approximately 1,200 publicly accessible
   web applications – a total that represents about half of all non-military Federal
   Government websites. Through its websites, the Agency shares information on its
   aeronautics, science, and space programs with the public and research community. For
   example, the Landsat mission – a program that began in the 1970s to gather satellite
   imagery of the Earth – maintains a website containing publicly available data on water
   quality, glacier recession, sea ice movement, invasive species encroachment, coral reef
   health, land use change, deforestation rates, and population growth. In addition, NASA
   has numerous administrative consoles and web login portals that enable Agency civil
   servants and contractors to access data and services remotely through a single point of
   entry from any computer or mobile device at virtually any location anywhere in the
   world.

   NASA is a regular target of cyber attacks both because of the large size of its networks
   and because of the sensitive nature of the information it maintains. Moreover, the
   Agency’s substantial connectivity with many nongovernmental educational and research
   institutions presents cybercriminals with a larger target than most other Government
   agencies.




   6
       Administrative consoles and web login portals are web applications that allow users to remotely manage
       or access an organization’s IT devices or data.
   7
       WhiteHat Security, Website Security Whitepaper Top 5 Myths of Website Security, Revised December
       2011.



REPORT NO. IG-14-023                                                                                            1
                                                                                                   INTRODUCTION



    Hackers have improperly gained access to NASA computer systems on numerous
    occasions. These incidents run the gamut from individuals testing their skills, to
    well-organized criminal enterprises hacking for profit, to intrusions likely sponsored by
    foreign intelligence services. Although some of these intrusions were minor incidents
    that caused no real damage, others affected thousands of NASA computers, caused
    significant disruption to mission operations, and resulted in the theft of sensitive data.
    For example, in July 2013 hackers compromised a NASA Shared Services Center
    website containing personally identifiable information for Agency civil servants and
    contractors. Additionally, in September 2013, several NASA websites hosted by the
    Ames Research Center were taken offline after a hacker posted political statements
    opposing U.S. policy. Because of NASA’s status as a “target rich” environment, the
    NASA Office of Inspector General (OIG) devotes substantial resources to overseeing the
    Agency’s efforts to protect its IT systems.8

    According to NASA policy, Agency websites created after 2008 must be registered,
    approved, and managed through the Agency’s Internet Protocol Asset Management
    (IPAM) system. To be registered and approved, websites must undergo a vulnerability
    scan and receive approval from the cognizant Center Chief Information Security Officer.
    Upon approval, NASA assigns the website an internet protocol (IP) address through
    IPAM and authorizes connection to the Internet.9

    Web Application Vulnerabilities. According to the Open Web Application Security
    Project, secure websites incorporate measures to protect against the following types of
    attacks and vulnerabilities:10

           1. Injection. Structured query language (SQL) injection attacks represent the
              greatest security threat to web applications. SQL is an industry standard
              computer language used to query, operate, and administer many databases,
              including Microsoft and Oracle products. In a SQL injection attack, the attacker
              injects instructions onto the end of a valid SQL statement in an attempt to gain
              unauthorized access to a computer system. Failure to fully validate user input by
              removing potentially malicious instructions exposes web applications to SQL



    8
         Since 2011, the OIG has issued five reports addressing this issue: “NASA’s Adoption of Cloud-
         Computing Technologies” (IG-13-021, July 29, 2013); “NASA’s Information Technology (IT)
         Governance” (IG-13-015, June 5, 2013); “Review of NASA’s Computer Security Incident Detection and
         Handling Capability” (IG-12-017, August 8, 2012); “NASA Faces Significant Challenges in
         Transitioning to a Continuous Monitoring Approach for Its Information Technology Systems”
         (IG-12-006, December 5, 2011); and “Inadequate Security Practices Expose Key NASA Network to
         Cyber Attack” (IG-11-17, March 28, 2011).
    9
         An IP address is a numerical communications protocol or set of standard rules used to transmit data over
         the Internet. The most widely used protocol on the Internet today is IP Version 4, which provides about
         4.3 billion IP addresses for use worldwide
    10
         The Open Web Application Security Project is an international nonprofit organization that focuses on
         improving software security. The Project has identified the most widely exploited web application
         vulnerabilities and published best practices to help organizations avoid exploitation.



2                                                                                           REPORT NO.IG-14-023
INTRODUCTION



              injection attacks. A vulnerable web application passes the attacker’s commands
              along with the valid SQL statement to the application and system’s back-end
              database. The results of a successful injection attack may include:

                      unauthorized information disclosure, in which the attacker steals sensitive
                       information from databases connected to the web application;

                      authentication bypass, in which the attacker is able to log in to a web
                       application without a valid username and password; and

                      compromising host computer, in which the attacker executes a command
                       that enables control of the computer operating the application and uses the
                       compromised computer to exploit other computers on the network to
                       obtain user account information, steal sensitive data, or disrupt operations.

          2. Cross-site scripting. Cross-site scripting flaws occur when an application takes
             data entered by an outside user and sends it to a web browser without proper
             validation. These flaws allow attackers to execute scripts in the victim’s
             computer browser that can hijack user sessions, deface websites, or redirect the
             user to malicious sites.

          3. Broken authentication and session management. Improper user authentication
             can enable attackers to compromise passwords or exploit other system
             weaknesses in order to assume an authorized user’s identity.

          4. Security misconfiguration. Failure to implement and maintain a secure
             configuration for web applications, frameworks, application servers, web servers,
             databases, and up-to-date software can result in unauthorized access.

   In a March 2011 audit report, we recommended that NASA implement a program to
   continuously monitor Agency networks and take prompt action to mitigate identified
   vulnerabilities.11 In response, NASA established the Web Application Security Program
   (WASP) to identify and assess vulnerabilities on the Agency’s publicly accessible web
   applications and to mitigate the most significant of those vulnerabilities. As part of
   WASP, NASA’s Office of the Chief Information Officer (OCIO) collaborated with the
   Langley and Ames Research Centers to scan Agency public IP addresses on a regular
   basis. Since the end of 2012, NASA has regularly scanned its IP addresses to identify the
   universe of publicly accessible computers connected to Agency networks.12 Moreover,
   as part of its WASP initiative NASA hired the consulting firm Booz Allen Hamilton
   (Booz Allen) to conduct both automated scans and manual testing of Agency web
   applications to identify, categorize, and track vulnerabilities. Two contractor employees

   11
        NASA OIG, “Inadequate Security Practices Expose Key NASA Network to Cyber Attack” (IG-11-17,
        March 28, 2011).
   12
        NASA uses Nmap, a software program that can identify hosts (computers) present on a network and the
        services, including applications such as e-mail or file sharing, those hosts offer.



REPORT NO. IG-14-023                                                                                          3
                                                                                                      INTRODUCTION



    working full time perform automated scans to search for vulnerabilities on identified
    active devices running web-based services and manually test publicly accessible NASA
    applications to identify vulnerabilities not detected by the automated scanning. The
    contractors refer “critical” or “high-severity” vulnerabilities to the OCIO and the affected
    Center, which are responsible for mitigating the problem.13

    In fiscal year (FY) 2013, the OCIO initiated the NASA Web Enterprise Services
    Technology (WestPrime) contract to support the Agency’s transition from an IT
    environment that relies on storing data and applications at multiple data centers to one
    that increasingly relies on storing information and applications in the public cloud. The
    OCIO strongly encourages but does not mandate NASA Centers, programs, and projects
    use WestPrime when acquiring web-based, cloud-computing services. As of April 2014,
    the OCIO and the WestPrime contractor managed approximately 140 internal and public
    NASA websites. NASA expects significant increases in use of the cloud over the next 5
    years, estimating that up to 75 percent of new IT programs could begin in the cloud and
    nearly 100 percent of the Agency’s public data could be stored there.

Objectives

    Our overall objective was to assess the effectiveness of NASA’s efforts to secure its
    publicly accessible web applications. To do this we evaluated (1) the efficacy of WASP
    and (2) NASA’s efforts to reduce its publicly accessible web applications. Details of the
    audit’s scope and methodology are set forth in Appendix A.




    13
         Critical vulnerabilities are those that if exploited could result in severe impact to the Agency.
         High-severity vulnerabilities are those that are of high concern due to ease of exploitation or the severity
         of impact if exploited.



4                                                                                              REPORT NO.IG-14-023
RESULTS




                                   NASA HAS IMPROVED THE SECURITY OF ITS
                                       PUBLIC WEB APPLICATIONS BUT NEEDS
                                   TO ADDRESS REMAINING VULNERABILITIES,
                                      STRENGTHEN PROGRAM OVERSIGHT, AND
                                            FURTHER REDUCE ITS EXTENSIVE
                                                           WEB PRESENCE

              NASA has improved the security of the Agency’s publicly accessible web
              applications using an enterprise-wide approach to identify and assess vulnerabilities
              and mitigate identified vulnerabilities. In addition, over a 15-month period ending in
              March 2014, NASA reduced by 15 percent its publicly accessible web applications,
              from approximately 1,500 to 1,200. Despite this progress, we found deficiencies in
              the design and implementation of NASA’s approach that leaves the Agency’s
              publicly accessible web applications at risk of compromise. Specifically, NASA did
              not prioritize the identification of vulnerabilities by seriousness of impact, identify
              the underlying cause of the vulnerabilities, address identified weaknesses in Agency
              IT security practices, and implement an effective process to ensure timely mitigation
              of vulnerabilities. In addition, while NASA has reduced its publicly accessible web
              presence, the Agency’s remaining 1,200 publicly accessible web applications
              continue to present a large number of potential entry points for attackers.

NASA Has Reduced its Web Presence and Improved Security of its
 Public Web Applications
   NASA has improved the security of publicly accessible web applications by developing a
   complete inventory of such applications. Since April 2012, NASA IT officials have used
   Nmap, a widely accepted open-source software program, to perform annual and quarterly
   Agency-wide scans to identify all NASA IP addresses accessible from the Internet.
   Nmap identifies active computers on NASA’s networks and the services they run, such as
   e-mail and file sharing.

   The SANS Institute and other security experts recommend a hybrid approach to identifying
   Internet security weaknesses, including both automated vulnerability scanning and manual
   testing.14 We found that NASA followed this best practice and that Booz Allen conducted
   both automated scans and manual testing to identify, categorize, and track web application
   vulnerabilities. In addition, since March 2014 new publicly accessible Agency websites
   may be launched only with approval from the Agency Chief Information Officer (CIO) and
   after an automated vulnerability scan. Any high-risk vulnerabilities detected must be
   mitigated before the websites are permitted to go live.



   14
        The SANS Institute is a private company recognized for expertise in IT and Internet security training.



REPORT NO. IG-14-023                                                                                             5
                                                                                                              RESULTS



    We reviewed NASA’s Agency-wide Nmap scans from late 2012 through the first quarter of
    2014 and found NASA had reduced its publicly accessible web applications by 15 percent,
    from approximately 1,500 to 1,200. As part of an ongoing effort, NASA IT security
    officials told us that they targeted obsolete or duplicative applications for elimination. In
    addition, the Agency CIO has encouraged Centers and Mission Directorates to utilize the
    WestPrime contract when moving web applications from NASA data centers to the public
    cloud. According to the Agency Web Services Executive, one of the goals of these
    initiatives is to reduce NASA’s web presence by encouraging adoption of cloud computing
    services and by limiting the growth of new publicly accessible web applications. Moving
    applications off NASA’s networks and into the cloud reduces the total number of entry
    points attackers can exploit.

    Despite this progress, we found that deficiencies in the design and implementation of
    WASP, combined with the Agency’s extensive Internet presence, continue to place
    NASA’s systems and data at risk of compromise.

Vulnerabilities Not Prioritized by System Impact
    Effectively managing risk dictates NASA identify and address vulnerabilities in high-
    and moderate-impact systems before those in low-impact systems.15 Accordingly, as part
    of our audit we sought to determine the number of publicly accessible Agency web
    applications associated with high- and moderate-impact systems and whether WASP
    prioritized vulnerability detection according to security impact level.

    We used the quarterly Nmap scans to identify IP addresses associated with NASA’s
    publicly accessible web applications and linked those addresses to their system security
    plans in order to determine the security impact level.16 According to information in
    NASA’s IT security database at the time of our audit, 1,464 IP addresses were associated
    with NASA’s publicly accessible web applications. As we have noted in prior audit
    work, NASA systems have been properly categorized.17 However, not all of the system
    categorization information on NASA’s publicly accessible web applications has been
    entered into the IT security asset database. In fact, of those addresses associated with
    public website applications, 429 (29 percent) were




    15
         According to the National Institute of Standards and Technology, the loss of confidentiality, integrity, or
         availability in a moderate-impact system could have serious adverse effects on an organization’s
         operations, assets, or individuals. Such a loss in a high-impact system could result in severe or
         catastrophic effects.
    16
         According to the National Institute of Standards and Technology (NIST), a system security plan is a
         formal document that provides an overview of the security requirements for the information system and
         describes the security controls in place or planned for meeting those requirements. The security impact
         level (high, moderate, low) is a required element of a NIST-compliant system security plan.
    17
         NASA OIG, “Federal Information Security Management Act: Fiscal Year 2008 Report from the Office
         of Inspector General” (IG-08-031, September 30, 2008).



6                                                                                            REPORT NO. IG-14-023
RESULTS



   categorized as either high- or moderate-impact, 256 (18 percent) as low impact, and the
   remaining 775 (53 percent) had no categorization available in the IT security asset
   database (Figure 1).18

                       Figure 1. NASA’s Internet-accessible Web Applications
                                    by Security Categorization




   Source: NASA OIG.


   Experience has shown that detecting vulnerabilities in web applications requires a
   combination of automated and manual testing, with WASP identifying 90 percent of the
   vulnerabilities in NASA systems using manual testing and 10 percent from automated
   scanning. Automated scanning has the ability to identify certain categories of
   vulnerabilities, including some SQL injection and cross-site scripting; however, complex
   vulnerabilities such as flaws in security functionality design (e.g., designs related to
   authentication and authorization) are not readily identified using automated techniques
   and require manual testing. Because manual testing requires a significant amount of time
   and resources, efficient use of such testing requires focusing on high- and
   moderate-impact systems before turning to low-impact systems.

   We found that WASP has not mapped NASA’s publicly accessible web applications back
   to their information systems using the Agency’s security categorization data to determine
   their security impact level. Accordingly, WASP is unable to prioritize manual scanning
   by risk level, which increases the risk that vulnerabilities in critical publicly accessible
   web applications may go undetected and unmitigated.

   18
        Although NASA has categorized these systems, this information has not been entered in its IT security
        asset database.



REPORT NO. IG-14-023                                                                                            7
                                                                                         RESULTS



WASP did not Address Root Cause of Vulnerabilities
    Identifying and addressing the root cause of a system’s security vulnerabilities helps
    prevent them from recurring and is a recognized best IT security practice. We noted that
    WASP identified a repeating pattern of high-severity vulnerabilities associated with
    certain publicly accessible web applications that allow NASA personnel to access
    Agency systems and network resources remotely. Specifically, these web applications
    support login portals and management consoles NASA civil servants and contractors use
    to remotely manage IT resources such as telecommunications devices, multifunction
    printers, and networking equipment. We found significant security weaknesses with
    these login portals and management consoles. For example, we identified usernames and
    passwords written directly into source code, credentials sent unencrypted over the
    Internet, and management consoles that permitted nonauthenticated access to NASA IT
    resources.

    In addition, we found that these login portals and management consoles often were not
    registered in the Agency’s IPAM system. Since 2008, NASA policy has required that
    new publicly accessible websites originating from the Agency be registered, approved,
    and managed through the IPAM process and tested for vulnerabilities before deployment.
    However, this policy does not apply to other types of web applications such as login
    portals and management consoles. In our judgment, the root cause of the recurring
    vulnerabilities associated with these web applications is a control deficiency that allowed
    the applications to be deployed without undergoing the type of oversight and testing
    required for public websites. While WASP identified and tracked vulnerabilities
    associated with these web applications, it did not address the root cause of the
    vulnerabilities by not taking action to remedy missing controls in business processes that
    allowed the applications to be deployed in the first place.

WASP did not Identify Weaknesses Associated with Unsound IT
 Security Practices
    Hackers may target publicly accessible web applications under development or
    undergoing testing because these applications often lack security controls common on
    production applications. If these preproduction applications contain “live” test data, a
    system breach could result in loss of sensitive data. For these reasons, best practices
    dictate that development and testing of web applications take place in an environment
    isolated from the Internet and separate from the organization’s production databases. In
    addition, this testing and development process should never use or connect to databases
    containing live data. Center Chief Information Security Officers we spoke with agreed
    that enabling Internet access to preproduction web applications is a poor security practice
    and should be avoided.




8                                                                           REPORT NO. IG-14-023
RESULTS



   We reviewed the registered name or uniform resource indicator (URI) of NASA’s
   publicly accessible web applications to determine if any were under development or in
   the testing phase.19 Typically, these web applications will have a URI that contains
   strings such as “.dev,” “.test,” or “.tst.” Hackers often develop a list of the intended
   target’s public web applications and first attack any applications under development or in
   testing.

   We identified 15 URIs associated with NASA’s publicly accessible web applications that
   were under development or in a test phase. Two of the 15 were pre-production
   applications of a moderate-impact system used to manage IT system access privileges
   that contained usernames and passwords for more than 55,000 NASA civil servants and
   contractors. We also confirmed that both of these preproduction web applications were
   connected to databases containing actual NASA user credentials. We immediately
   reported these vulnerabilities to Center security officials.

   An attacker who accessed either of the two applications could have easily extracted
   thousands of user identifiers (ID). Using these IDs, the attacker could attempt to log in to
   NASA systems using an automated tool that repeatedly “guesses” the corresponding
   password, a technique known as a brute force attack. If successful in gaining
   unauthorized access to an Agency network, the attacker would possess the same access
   privileges as the NASA civil servant or contractor whose identity the hacker had
   assumed. If that employee was a systems administrator, the hacker could (1) modify,
   copy, or delete sensitive files; (2) add, modify, or delete user accounts for NASA
   systems; (3) upload hacking tools to steal user credentials and compromise other NASA
   systems; and (4) modify system logs to conceal their actions. In FY 2013, brute force
   attacks accounted for 6 percent (11 of 183) of breaches into Agency systems.

   In our judgment, WASP did not identify this significant security vulnerability because it
   focused too narrowly on identifying technical vulnerabilities, such as SQL injection
   flaws, and did not identify weaknesses associated with broader, unsound IT security
   practices.

Untimely Mitigation of Vulnerabilities Puts NASA’s Public Web
  Applications at Risk of Compromise
   Prompt mitigation of vulnerabilities in NASA’s publicly accessible web applications is
   essential to ensure the confidentiality, integrity, and availability of Agency systems and
   data. We examined the status of documented web application vulnerabilities and found
   that in January 2014, 93 percent (26 of 28) of confirmed critical and high-severity
   vulnerabilities remained unmitigated more than 6 months after notification to the affected
   Center.

   19
        Uniform Resource Indicator (also referred to as Uniform Resource Locator or URL) is a string of
        characters used to identify a website or web resource. For example, www.nasa.gov is the URL for
        NASA’s primary public website.



REPORT NO. IG-14-023                                                                                      9
                                                                                           RESULTS



     WASP ranks identified vulnerabilities as critical, high, moderate, low, and informational
     based on their potential to disrupt Agency operations. NASA requires prompt mitigation
     of all critical and high-severity vulnerabilities due to the potentially adverse effect they
     could have on Agency operations if exploited. Specifically, NASA’s IT security policy
     requires WASP to notify Center Chief Information Security Officers about all critical and
     high-severity vulnerabilities within 5 business days of discovery and Centers are
     expected to complete corrective actions to mitigate the vulnerabilities within 5 business
     days of notification. Consequently, Agency policy requires that all critical and
     high-severity vulnerabilities should be mitigated no later than 10 business days from
     discovery.

     Corrective actions may include mitigating the vulnerability by modifying the web
     application’s code, isolating the application by removing it from the Internet and moving
     it to an Agency internal or private network, or decommissioning the application. To
     verify mitigation of vulnerabilities, WASP manually checks for removal of the
     vulnerability or validates the system when performing quarterly vulnerability scans.
     After confirmation of mitigation, the vulnerability is deleted from the Agency’s
     vulnerability tracking system – a system managed by Booz Allen and one to which the
     OCIO and Centers do not have access.

     In our judgment, critical and high-severity vulnerabilities in NASA web applications
     went unmitigated because OCIO staff do not have access to the Agency’s vulnerability
     tracking system to monitor the status of vulnerabilities and corrective actions. OCIO
     officials said a lack of resources prevent them from monitoring the real-time status of all
     vulnerabilities in the system. Moreover, Center IT staff told us they could not determine
     the status of their Center’s vulnerabilities because they did not have access to the system.
     Finally, we found that WASP generally used a 45-day rather than the required 10-day
     timeframe for validating whether critical and high- severity vulnerabilities had been
     mitigated.

Conclusion
     NASA’s publicly accessible web applications are under constant attack by hackers and the
     frequency and sophistication of these attacks is increasing. Thus, it is imperative that the
     Agency find and mitigate vulnerabilities in NASA web applications before attackers can
     exploit them. In addition, NASA should identify the root cause of security weaknesses to
     prevent vulnerabilities from recurring. The Agency also needs to improve oversight of its
     vulnerability mitigation program to ensure identified deficiencies are addressed promptly.
     Finally, while the Agency has made progress in reducing its publicly accessible web
     presence by more than 300 applications, the 1,200 remaining publicly accessible web
     applications provide multiple potential entry points for attackers seeking to gain
     unauthorized access to Agency systems and data.




10                                                                            REPORT NO. IG-14-023
RESULTS



Recommendations
   To improve the effectiveness of NASA’s Web Application Security Program, we
   recommend that the Agency Chief Information Officer:

   Recommendation 1. Modify WASP protocols to prioritize vulnerability discovery and
   mitigation resources on the highest impact systems first.

      Management’s Response. The Agency CIO concurred with our recommendation,
      stating the WASP protocol will be adjusted to prioritize vulnerability discovery and
      mitigation based on risk, impact, and data set sensitivity by October 31, 2014.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the proposed actions.

   Recommendation 2. Require that all publicly accessible web applications, including
   login portals and management consoles, be registered in the Agency’s IPAM System and
   pass a vulnerability test prior to deployment.

      Management’s Response. The Agency CIO concurred with our recommendation,
      stating the WASP protocol will be modified to address the issues identified in this
      report starting with the quarterly scan cycle beginning no later than October 1, 2014.
      This quarterly cycle will be evaluated with the January 1, 2015 scan and complete the
      evaluation by January 31, 2015.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the proposed actions.

   Recommendation 3. Remove from the Internet or secure with a web application firewall
   all Agency web applications in development or testing mode.

      Management’s Response. The Agency CIO concurred with our recommendation,
      stating that by January 1, 2015, the OCIO will work with stakeholders to ensure that
      policies and processes are in place to identify and secure web applications that are in
      development or testing mode.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved and will be closed upon
      completion and verification of the proposed actions.




REPORT NO. IG-14-023                                                                            11
                                                                                         RESULTS



     Recommendation 4. Ensure that critical and high-severity web application
     vulnerabilities are mitigated within 10 business days of discovery, as required by Agency
     policy.

        Management’s Response. The Agency CIO concurred with our recommendation,
        stating that by January 1, 2015, the WASP team’s governance processes and
        procedures will be updated to ensure that findings are mitigated in accordance with
        Agency policy. Furthermore, processes will be updated to ensure stakeholders are
        notified of outstanding critical and high-risk findings that need to be addressed or
        remediated, “deferred” as a Plan of Action and Milestones, or accepted as a risk.

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive; therefore, the recommendation is resolved and will be closed upon
        completion and verification of the proposed actions.

     Recommendation 5. Grant Center Chief Information Security Officers and OCIO
     officials access to the Agency vulnerability tracking system to ensure adequate
     monitoring of the status of vulnerabilities.

        Management’s Response. The Agency CIO concurred with our recommendation
        and stated that by December 5, 2014, the WASP team will develop procedures to
        grant officials user accounts in the Agency’s vulnerability tracking system.

        Evaluation of Management’s Response. Management’s proposed actions are
        responsive; therefore, the recommendation is resolved and will be closed upon
        completion and verification of the proposed actions.




12                                                                         REPORT NO. IG-14-023
APPENDIXES




                                                                            APPENDIX A


Scope and Methodology

   We performed this audit from July 2013 through June 2014 in accordance with generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
   for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives.

   In order to determine whether NASA implemented adequate security measures over its
   publicly accessible web applications to reduce the risk of compromise as required by
   Federal and Agency guidance and industry best practices, we interviewed OCIO officials,
   Center IT security personnel, and Booz Allen contractors in charge of WASP. We
   reviewed the Agency’s WASP handbook. We used the Agency’s quarterly Nmap scans
   to identify development systems, test systems, and management consoles on NASA’s
   network that are publicly accessible. In addition, we used the quarterly Nmap scans to
   quantify the number of Agency IP addresses associated with its publicly accessible web
   applications. Then, we linked the IP addresses for NASA’s publicly accessible web
   applications back to their related system security plans as noted in the Agency’s IPAM
   system to determine their Federal Information Processing Standard 199 system impact
   level. Finally, we reviewed the status of web application vulnerabilities in the Agency
   tracking system to determine the number of vulnerabilities that have not been mitigated
   within 6 months.

   In order to determine the status of NASA initiatives to reduce the Agency’s number of
   publicly accessible web applications, we interviewed NASA officials to determine the
   progress made and barriers encountered. We also obtained the Agency’s quarterly Nmap
   scans and identified the total number of IP addresses associated with publicly accessible
   web applications for each quarter in order to determine whether there was a reduction in
   the total web applications exposed.

   Use of Computer-Processed Data. We reviewed the Agency Nmap scans. We verified
   the completeness of this listing by reviewing the script used to run the scans and
   comparing the IP addresses in the scan to those in the inventory system, IPAM. In
   addition, we reviewed the Agency’s vulnerability tracking system. While we did not
   verify the accuracy of the vulnerabilities, this did not impact our findings or conclusions.




REPORT NO. IG-14-023                                                                              13
                                                                                      APPENDIX A



Review of Internal Controls

     We identified and evaluated the effectiveness of internal controls in place for NASA’s
     WASP program related to the identification of all publicly accessible web applications,
     assessment of these web applications for vulnerabilities, and mitigation of the most
     severe vulnerabilities before they can be exploited. The control weaknesses we identified
     are discussed in the Results section of this report. Our recommendations, if implemented,
     should correct the identified weaknesses.

Prior Coverage

     During the last 5 years, the Department of Commerce Office of Inspector General,
     Department of Homeland Security Office of Inspector General, Department of
     Transportation Office of Inspector General, and the Office of Personnel Management
     Office of Inspector General have issued four reports of particular relevance to the subject
     of this report/audit. Unrestricted reports can be accessed over the Internet at
     http://www.oig.doc.gov (Department of Commerce Office of Inspector General),
     http://www.oig.dhs.gov/ (Department of Homeland Security Office of Inspector General),
     https://www.oig.dot.gov/ (Department of Transportation Office of Inspector General),
     and http://www.opm.gov/our-inspector-general/ (Office of Personnel Management Office
     of Inspector General).

     Department of Commerce Office of Inspector General

     "Improvements are Needed for Effective Web Security Management" (OIG-12-002-A,
     October 21, 2011)

     Department of Homeland Security Office of Inspector General

     "Vulnerabilities Highlight the Need for More Effective Web Security Management"
     (OIG-09-101, September 2009)

     Department of Transportation Office of Inspector General

     "Review of Web Applications Security and Intrusion Detection in Air Traffic Control
     Systems" (FI-2009-049, May 4, 2009)

     Office of Personnel Management Office of Inspector General

     OPM OIG "Audit of the Information Security Posture of the U.S. Office of Personnel
     Management's USAJOBS System FY2012” (4A-HR-00-12-037, July 26, 2012)




14                                                                          REPORT NO. IG-14-023
APPENDIX B




                       MANAGEMENT COMMENTS




REPORT NO. IG-14-023                         15
             APPENDIX B




16   REPORT NO. IG-14-023
APPENDIX B




REPORT NO. IG-14-023   17
                                                                              APPENDIX C




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Information Officer

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Operations
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space




18                                                                    REPORT NO. IG-14-023
Major Contributors to the Report:
   Wen Song, Director Information Technology Audit
   Jefferson Gilkeson, Program Manager
   Morgan Reynolds, Audit Team Lead




REPORT NO. IG-14-023                                 19
                                                                                    JULY 10, 2014
                                                                    REPORT NO. IG-14-023




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
